             OFFICE OF
             INSPECTOR GENERAL
             U.S.DEPARTMENT OF THE INTERIOR


                                                                                     AUG - 2 2011
Memorandum

To:           Joseph Ward
              Director, N ational~
                                 USin §s Center

From:         Hannibal M. War ).
              Assistant Regiona anage
                                                r-
Subject:      Verification Review of Recommendations for the June 2009 Evaluation Report,
              "Reorganization of the Working Capital Fund and the Interior Franchise Fund
              (Assignment No. ER-EV-PMB-0001-2009)"
              Report No. ER-VS-PMB-0009-2011

       The Office ofInspector General (OIG) has completed a verification review of the five
recommendations presented in the subject report. The objective of the verification was to
determine whether the recommendations were implemented by the National Business Center
(NBC) as reported to the Office of Financial Management (PFM), Office of Policy, Management
and Budget (PMB). PFM reported to OIG when each of the five recommendations in the subject
report were addressed and provided supporting documentation. As a result, the report effectively
closed October 1,2010. Based on our verification, we concur that the recommendations were
resolved and satisfied at the time of closure.

Background

        Our June 2009 evaluation report, "Reorganization of the Working Capital Fund and the
Interior Franchise Fund" contained five recommendations. The first two recommendations
addressed the need for NBC to identify Interior's mandatory services, or non-competitive lines of
business prior to any decision to transfer services from the Working Capital Fund (WCF) to the
Interior Franchise Fund (IFF). The remaining three recommendations addressed the need to
define and establish an IFF operating reserve and monetary limit. In order to provide
management controls, OIG recommended requiring process documentation for calculating
reserve amounts to ensure that revenue does not exceed the established limits for the operating
and capital improvements reserves.

        In a memorandum dated July 9,2009, PMB concurred with all findings and
recommendations in the draft report. Specifically, PMB concurred with the need to conduct a
review of NBC mandatory lines of business to ensure that those services remain in the WCF, and
to delay any transfer of lines of business from WCF to IFF until such an evaluation takes place.
On August 14,2009, we referred all five recommendations to PFM for tracking. On August 18,
2009, PFM reported to OIG that NBC had provided a detailed corrective action plan, and as a
result considered all five recommendations resolved.



                         Office of Audits, Inspections, and Evaluations   I Herndon, VA
      Subsequently, PMB reported that all recommendations had been implemented and closed.
Memorandums with supporting documentation were provided to OIG on June 10,2010,
September 10, 2010, September 24,2010, and October 1, 2010.

Scope and Methodology

      The scope of this review was limited to determining whether NBC took action to
implement the recommendations. To accomplish our objective, we reviewed the supporting
documentation that NBC provided and discussed actions taken relating to each of the five
recommendations.

        We did not perform any site visits or conduct fieldwork to determine whether the
underlying deficiencies that were initially identified have actually been corrected. As a result,
this review was not conducted in accordance with the Generally Accepted Government Auditing
Standards issued by the Comptroller General of the United States or the "Quality Standards for
Inspections" of the Council of the Inspectors General on Integrity and Efficiency.

Results of Review

        All five of OIG's recommendations were satisfied as indicated by their closure. We found
that NBC recently commissioned an organizational "strategic assessment," to inventory existing
NBC services, produce business realignment recommendations, and develop an implementation
strategy. This contract was awarded on July 6, 2011 , and was effective on July 11 , 2011. NBC
reiterated their commitment to discuss with OIG any plans to move business lines or components
to the IFF.

       Recommendation 1: Identify the NBC mandatory service, or non-competitive, lines of
       business and ensure these lines of business remain in the WCF.

       Recommendation 2: Delay the transfer of any of the NBC lines of business from the
       WCF to the IFF pending the implementation of an operating reserve and appropriate
       management controls over both reserve accounts.

        NBC did not specifically identify its mandatory service, or non-competitive, lines of
business in response to ~IG ' s recommendation. Instead, PFM stated that NBC lines of business
were already accounted for through the IFF at the time of OIG's evaluation. In PFM's response
closing the recommendation, they explained that NBC decided against moving any lines of
business from WCF to IFF, and in the future they would only do so after consulting with OIG.
NBC officials explained to us that with any non-mandatory or competitive component or service,
the customer would have to agree to a transfer and pricing of services would have to be
established.

       We discovered through the verification process that NBC recently awarded a contract to
commission a "strategic assessment" to inventory existing NBC services, produce business
realignment recommendations, and develop an implementation strategy. The contract was
awarded on July 6, 2011, and was effective on July 11 , 2011 . After reviewing the available


                                                2
documentation and speaking with appropriate management officials, we concluded that
recommendations 1 and 2 were satisfactorily resolved and closed.

       Recommendation 3: Establish clearly defined "reasonable" limits for the IFF operating
       reserve.

       Recommendation 4: Create an IFF operating reserve that reflects these "reasonable"
       limits.

        The Interior Appropriations Act authorizes the Department to establish a reasonable IFF
operating reserve separate from a capital improvements reserve. OIO's evaluation found that the
failure of the IFF to maintain an operating reserve separate from its capital improvement reserve
undermined the intent of the Act. To close recommendation 3, NBC provided PFM with a clearly
defined IFF operating reserve limit, supporting rationale and associated policy guidance. NBC
concluded that an amount equal to two months of total annual Interior Franchise Fund operating
expenses, excluding contract pass-through amounts, is considered a reasonable reserve.

       We confirmed through the verification process that the IFF operating reserve NBC
created adheres to the limits set and established policy guidelines. After reviewing the available
documentation and speaking with appropriate management officials, we concluded that
recommendations 3 and 4 are resolved and implemented.

       Recommendation 5: Require process documentation for calculating reserve amounts to
       ensure revenue does not exceed the established limits for the operating and capital
       improvements reserves.

        As a result ofOIO's recommendation, NBC now requires process documentation for
calculating reserve amounts annually to ensure revenue does not exceed established limits. 010
obtained the IFF operating reserve amount and calculation along with the working papers for
fiscal year 2010 as part of the verification process. After reviewing the available documentation
and speaking with appropriate management officials, we concluded that recommendation 5 is
resolved and implemented.

Conclusion

       We informed NBC officials ofthe results ofthis review at an exit conference on June 22,
 2011. NBC officials agreed with the results of our review.

cc:    Rhea Suh, Assistant Secretary for Policy, Management and Budget
       Mary Pletcher, Deputy Director, National Business Center
       Jim Beall, Chief Financial Officer, National Business Center
       John Nyce, Associate Director, Acquisition Services Directorate
       Dean Martin, Audit Liaison Officer, National Business Center
       Alexandra Lampros, Audit Liaison Officer, Office of Financial Management




                                                 3
